IN THE
SUPREME COURT OF THE UNITED STATES
Si/pre

0Cr 2 3 2020

RUBEN G. ARAGON

— PETITIONER

OFF/CE o

(Your Name)

vs.
TEE STATE OF COLORADO

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

U.S. COURT OF APPEALS FOR THE TENTH CIRCUIT
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI
Ruben G. Aragon, #153477

(Your Name)
Arkansas Valley Correctional Facility
12750 Highway 96, Lane 13
(Address)
Ordway, GO.

81034

(City, State, Zip Code)
Unknown

(Phone Number)

^eclerk

QUESTION(S) PRESENTED
1) Is Mr. Aragon entitled to equitable tolling of the statutory
limitations set by 28 U.S.C. § 2244(d)(1)(A), due to a
state-imposed impediment which prevented him from learning
that the terms of his Colorado plea agreement had been
violated?

i.

LIST OF PARTIES

Cxi All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES
Saatobello v. New York, 404 U.S. 257 (1971)

ii.

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

... 2.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4-9

REASONS FOR GRANTING THE WRIT

10-15

CONCLUSION

15

INDEX TO APPENDICES
APPENDIX A ...Decision from U.S. Court of Appeals, Tenth Circuit denying C.O.A.

APPENDIX B ...Decision from U.S. Dist. Ct. of Colorado dismissing habeas application.

APPENDIX C

• • • Colorado

Court of Appeals decision denying motion to Correct an
Illegal Sentence.

APPENDIX D.. .Written plea agreement and mittimus showing engendered governmental
promise to concurrent sentence to federal sentence in Colorado.

APPENDIX E
APPENDIX F

iii.

TABLE OF AUTHORITIES CITED
CASES
Halbert v.
Jimenez v.
Montejo v.
People vV.

PAGE NUMBER
Michigan, 125 S. Ct. 2582 (2005).............................
Quarterman, 555 U.S. 113 (2009).............................
Louisiana, 556 U.S. 778 (2009).................................
Aragon, Colo. App. No. 2017CA1590 (Jan. 24, 2019)

People v. Frank, 30 P.3d 664 (Colo. App. 2000)........................
Santobello v. New York, 404 U.S. 257 (1981).............................
U.S. v. Aragon, U.S. Dist. Ct. of Colo. No. 92-cr-422-WYD...

12

13
11
8
6, 7
8, 13, 14
4

STATUTES AND RULES
18 U.S.C. § 3584............................................
28 U.S.C. § 2244............................................
28 U.S.C. § 2254............................................
Colorado Revised Statute, § 17-22.5-403..
Colorado Revised Statute, § 17-22.5-405..
Colorado Rule of Criminal Procedure 35(a)
Colorado Rule of Criminal Procedure 35(c)

9, 15
8, 9, 10, 13, 14, 15
8, 9
6
6
8
8

OTHER
Colorado Department of Corr.'s, Admin. Reg. 600-01

iv.

7

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[x] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

A

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
Cxi is unpublished.
B

The opinion of the United States district court appears at Appendix
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[xl is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

tn

JURISDICTION
[x] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was June 25, 2020
[ ] No petition for rehearing was timely filed in my case.
[:;] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
and a copy of the
order denying rehearing appears at Appendix
[x] An extension of time to file the petition for a writ of certiorari was granted
(date) on March 19, 2020
to and including _ Nov. 20, 2020
(date)
in Application No.
A
. See General Order 589 by Court enlarging
time to file Petition to 150 days due to COVID-19 concerns.
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
United States Constitution, Amendment Fourteen:
"[N]o State shall make or enforce any law which shall abridge the privilges
or immunities of citizens of the United States, nor shall any State
deprive any person of life,7 liberty, or property, without due process of
law; nor deny to any person within its jurisdiction the equal protection
of the laws."

Federal Statutes:
18 U.S.C. § 3584
28 U.S.C. § 2244
28 U.S.C. § 2254

Colorado Revised Statutes:
§ 17-22.5-403, § 17-22.5-405

Colorado Court Rules:
Colorado Rule of Criminal Procedure 35(a)
Colorado Rule of Criminal Procedure 35(c)

3.

STATEMENT OF THE CASE
On Sept. 27, 1997, Mr. Aragon entered a plea of guilty in the U.S. District Court
of Colorado, in Case No. 92-cr-422-WYD (United States of America v. Ruben G.
Aragon), to one count of distribution/sales of narcotics. As a result of that
plea, on Oct. 20, 1997, Mr. Aragon was sentenced to 10-years in the federal prison
system, with this sentence being imposed consecutively to any other sentence
Mr. Aragon was currently serving (at the time of Mr. Aragon's plea/sentence,
Mr. Aragon was serving time for convictions and sentences imposed by the State
of Kentucky.) Following imposition of his federal sentence by the U.S. District
Court of Colorado, Mr. Aragon was released to Kentucky authorities. Because Mr.
Aragon, when in custody of Kentucky authorities had properly requested disposition
of both his federal Colorado detainer and his State of Colorado detainer, once
his federal sentence was imposed and he was again released to Kentucky officials,
they immediately surrendered Mr. Aragon to the State of Colorado authorities,
i.e., the County of Arapahoe, State of Colorado, where he was charged with murder
and distribution of a controlled substance.

On July 8, 1998, Mr. Aragon entered into a stipulated plea agreement (see Appendix
D), with Arapahoe County, State of Colorado officials whereby it was guaranteed
that in return for his plea of guilty to one count each of second-degree murder
and distribution of a controlled substance, he would receive (respectively), prisdn
sentences of 48 and 22-years (70-years overall), with these two sentences being
imposed consecutively to each other, but concurrently to his federal sentence
in the above referenced case. See Appendix D. Mr. Aragon, upon sentencing by

4.

Arapahoe County, State of Colorado officials, was immediately returned to the
custody and control of State of Kentucky officials, where he continued to serve
that State's sentences until March 15, 2011, when State of Kentucky officials
released him to the State of Colorado authorities, so he could serve the remainder
of the sentences they imposed in their custody. (Mr. Aragon's Colorado sentences
were imposed concurrently to both his Kentucky, as well as federal sentence,
hence he reasonably believed, based upon the engendered governmental premise
of Colorado authorities, that once he was released to their custody, i.e • /
completed the service of his Kentucky sentences, his federal sentence would
commence, as it was only imposed consecutively to his Kentucky sentence.)

Mr. Aragon began serving the remainder of his Colorado sentences, all the while
understanding, based upon the Arapahoe County, State of Colorado officials
engendered governmental promises, that his federal sentence would commence once
he was released from his Kentucky sentences, even though he still had time to
serve on his Colorado sentences and had no reason to question otherwise. In
addition, when Mr. Aragon was sentenced in 1997 upon his federal distribution
charge, federal authorities placed a detainer upon him when they returned him
to the custody and control of Kentucky officials (this detainer remained when
he was returned to Colorado authorities, and should have remained until he had
served 8.5-years in the Colorado prison system where it would be discharged upon
completion of the 10-year federal sentence which was allegedly running concurrent
to his Colorado sentences, once his Kentucky sentences were discharged.)

5.

Under Colorado law, a criminal defendant's parole eligibility is calculated by
reducing the sentence by fifty-percent for good time and another 25% for earned
time. See §§ 17-22.5-403(1), 17-22.5-405 C.R.S. In essence, on Mr. Aragon's
seventy-year overall Arapahoe County, State of Colorado sentences, Mr. Aragon
would be required to serve 26.25-years before becoming parole eligible, provided
he has no disciplinary infractions and is program compliant. Given Mr. Aragon's
Colorado sentences were imposed concurrently to both his State of Kentucky and
federal sentences (the latter of which was believed to have commenced running
on the date he was released from Kentucky authorities) Mr. Aragon began serving
1
his Colorado sentences in 1996, when he was sentenced in Kentucky, making him
presumptively parole eligible on his Colorado sentences sometime in 2022 (this
is provided that Mr. Aragon received earned time on his Colorado sentences while
serving time in the custody and control of Kentucky officials, which he eventually
was granted by Colorado authorities in 2017, when he requested what is known
as a Frank review. See People v. Frank, 30 P.3d 664 (Colo. App. 2000)).

As a result of the receipt of earned time for service of his Colorado sentences
while in Kentucky, Mr. Aragon believed he was now eligible to be moved through
the Colorado prison system, to a lower custody, where he could receive mandatory
drug programming such as "theraputic community" (it should be noted at this point
that in 2011, when Mr. Aragon was initially returned to Colorado by Kentucky
autorities, Mr. Aragon recognized that he might not be able to move through the
Colorado prison system to do such programming if a federal detainer remained
1. Because Mr. Aragon's Colorado sentence was concurrent to his Kentucky sentence
it is considered one-continuous sentence that commences in 1996. See § 17-22.5-101
C.R.S.
6.

upon him, so he attempted to have it removed by filing an action in the U.S.
District Court of Colorado. This was prior to Mr. Aragon being granted the earned
time for service of his Colorado sentence while in Kentucky (approximately 5years of earned time was awarded in 2017 to Mr. Aragon, thereby moving his parole
eligibility date up 5-years) and when he discovered he had not received earned
time in 2011, dropped his requests for dismissal of his federal detainer as his
Colorado parole eligibility date would not be until late 2027, well after his
10-year federal sentence had been discharged and prior to being within 5-years
of his Colorado parole eligibility date, which is what is required for a Colorado
prisoner to move through the prison system and participate in mandatory pro­
gramming. See Colorado Dept, of Corrections Admin. Reg. 600-01 (classification.)

So, in 2017, when Mr. Aragon got the additional earned time awarded to him under
Frank supra, he was now approximately within 5-years of his Colorado parole
eligiblity date, so he sought his case manager out to discuss the possibility
of moving through the Colorado system, especially since he was now also within
several years of discharging his federal sentence (initially believed that it
would discharge in 2019, 8.5-years after Mr. Aragon's release from Kentucky
authorities to Colorado authorities.) It was in 2017, when Mr. Aragon first
learned that his federal sentence had not commenced at all, despite his being
released to Colorado authorities and their promise that the sentences imposed
against him by them would run concurently to his federal sentence. See Appendix
D.

7.

Upon learning that the terms of the engendered governmental premise made to
him by Arapahoe County, State of Colorado officials had been breached, Mr. Aragon
immediately filed a combined Crim.P.Rule 35(a)/35(c) motion, in which he
complained that his due process rights afforded to him under the provision of
the Fourteenth Amendment to the United States Constitution and this Court's
findings in Santobello v. New York, 404 U.S. 257 (1971). This action was
summarily denied by the Araphoe County, State of Colorado court in which Mr.
Aragon had entered his plea and was sentenced. Mr. Aragon appealed and a division
of the Colorado Court of Appeals affirmed that summary denial by making findings
that are clearly contrary to the records of the case, that Colorado official's
promises that Mr. Argaon's Colorado sentences would run concurrently with his
federal sentence was merely a recommendation. See Appendix C, People v. Aragon,
Colo. App. No. 2017CA1590 (Jan. 24, 2019). Certiorari was sought and denied
by the Colorado Supreme Court, on June 3, 2019.

Immediately following denial of certiorari by the Colorado Supreme Court, Mr.
Aragon filed a 28 U.S.C. § 2254 habeas application in the U.S. District Court
of Colorado. Recognizing that he was time barred from seeking such relief by
28 U.S.C. § 2244(d)(1)(A), Mr. Aragon simultaneously filed a motion requesting
equitable tolling of § 2244(d)(1)(A)'s limitations, under subsection (B) of
that statute, i.e • f due to a state-imposed impediment, caused by Arapahoe County,
State of Colorado officials who had either misunderstood that they lacked the
authority to impose their sentences concurrently to Mr. Aragon's federal sentencef

8.

see 18 U.S.C. § 3584, or those officials flat out lied to Mr. Aragon in order
to get him to accept a proffer. In that motion, Mr. Aragon set forth the facts
of his case and stated that he had acted with all due diligence once he had
discovered that the Arapahoe County, State of Colorado officials had breached
the terms of his plea agreement.

On Feb. 27, 2020, the Honorable Magistrate Judge Gallagher issued a recommendation that Mr. Aragon's § 2254 habeas application be dismissed as being time
barred, i.e • 9 that he was not entitled to equitable tolling of the statutory
limitations imposed by § 2244(d)(1)(A), as Mr. Aragon knew a federal detainer
existed in 2011, when he was first released by Kentucky authorities to Colorado
authorities, as he'd sought to have the detainer quashed in 2011. See Docket
No. 25, pp,. 6-8. (Based upon the foregoing, this reasoning is flawed, as a
federal detainer had existed on Mr. Aragon since he was sentenced by federal
authorities in 1997 and should have remained until Mr. Aragon was released to
Colorado authorities and served eighty-five percent of his 10-year federal
sentence, which would expire sometime in 2019.) The Honorable Lewis T. Babcock
adopted Judge Gallagher's recommendations over Mr. Aragon's timely objections.
See Docket No.'s 28, 29. Judge Babcock also denied Mr. Aragon a C.O.A. and forma
pauperis status on appeal. See also, Appendix B.

Nonetheless, Mr. Aragon, on June 2, 2020, filed a combined request for issuance
of a C.O.A./appeal to the U.S. Court of Appeal for the Tenth Circuit. On June
25, 2020, the U.S. Court of Appeals denied said. See Appendix A.

9.

REASONS FOR GRANTING THE PETITION
1 ) Is Mr. Araqon entitled to equitable tollinq of the statutory
limitations set by 28 U.S.C. G 2244(d)(1)(A), due to a
state-imposed impediment which prevented him from learninq
that the terms of his Colorado plea aqreement had been violated?
Argument for Relief:
In beqinning this arqument, there's a couple of factual thinqs that need to
be correctly understood, which seem to have escaped all of the lower courts.
First, all of the lower courts state that the Arapahoe County, State of
Colorado, plea aqreement with Mr. Araqon only recommended that his Colorado
sentences run concurrently to his 10-year federal sentence. See Appendix A,
pp. 4, Appendix C, pp. 5,

13,; cf • / Appendix D 2 (mittimus and written plea

aqreement, which at no point say anythinq about concurrent sentence beinq
merely a recommendation.) In fact, the U.S. District Court never found that
the Arapahoe County, State of Colorado only ''recommended1 that Mr. Araqon's
Colorado sentences run concurrently to his federal sentence, but rather, only
that Mr. Araqon should have known about his claim when his federal sentence
was imposed, as it was silent as to whether it would run consecutively or
concurrently to any future sentence he may receive. See Docket No. 25, pp.6
(recommendation of Maqistrate Judqe Gallaqher); cf • t Docket No. 29 (final
dismissal by Judqe Babcock, that if the failure to understand this could be
imputed to state counsel, the one who advised Mr. Araqon that his Colorado
sentences would be runninq concurrently to his federal sentence, at a time
when he had a constitutional riqht to effective assistance of counsel, he must
2. it is patently obvious that the 10th Circuit Court of Appeals did not view
the mittimus and plea agreement submitted as exhibits, and simply relied on
the erroneous conclusion by the Colorado Court of Appeals.
10

nonetheless bear the burden of attorney error/negligence. Id, pp. 2).

Secondly, if as inferred above, when there is a constitutional right to receive
effective assistance of counsel (a right which applies at all critical stages
of a criminal proceedings, including the plea process, see Montejo v. Lousiana,
556 U.S. 778, 786 (2009)) attorney error may be correctly imputed to the state,
as in Mr. Aragon's case, it is clear that not only did he rely on counsel's
advice that his Colorado sentences would be running concurrently with his
federal sentence, but also the promise of the assistant district attorney
of Arapahoe County who made the proffer and the trial court which agreed and
imposed the concurrent sentences.

With all due respect to the lower courts, what we have is two different
reasonings to deny Mr. Aragon the due process protections afforded by the
U.S. Constitution, as well as this Court; but we have the same courts either
placing the blame on Mr. Aragon (who detrimentally relied on the premises be­
stowed by three separate Colorado governmental officials), for his failure
to discover that his federal sentence was not running once he was returned
to Colorado.

Mr. Aragon is at a loss as to how he was supposed to discover this? The lower
courts suggest that he should have gone to the law library, researched the
issue and he would have found this out. See Appendix A, pp. 4. This raises
a question as to what the impetus would have been to do this seme 15 years

11.

z"'

into service of his Colorado sentence? Isn't ineffective assistance of counsel
or having Colorado officials either misunderstand (in turn misadvising a
defendant as to what authority they possess), or flat out lie to a defendant
sufficient to warrant exception? After all, is it really necessary that every
defendant who enters a plea or goes to trial must search out every conceivable
statute or constitutional provision that might affect him? Has attorney repre­
sentation sunk to such a level that a defendant cannot rely on any action of
counsel? Couple this with this Court's determination of the limitations of
most, if not virtually all pro-se prisoner litigants (see Halbert v. Michigan,
125 S.Ct. 2582, 2592-93 (2005)) and what we're left with is virtually no meaning
in the Sixth Amendment's requirement of effective assistance. Assuredly, defense
counsel's, as well as the providency court's and district attorney's under­
standing of what authority they have, i.e • t whether they can impose a sentence
concurrently to a federal sentence which has already been imposed should be
basic law. In turn Mr. Aragon's reliance on the promises of these individuals'
should be excusable. (Let's use an anaolgy. You go to a used car lot to buy
a car. You find one you like with low mileage. The salesman assures you that
even though the mileage seems abnormally low for the year of the vehicle, that
this is the actual mileage of the car, because they do inspections and safety
checks of all of their vehicles. You get the car home and immediately things
start going wrong. As it turns out the odometer, which was supposedly checked
has been turned back by its previous owner. The car salesman at best misrep­
resented his understanding of the low mileage and at worst knew and lied about
it. This sale would be actionable as it is fraud. Can we not expect the same
from or judicial system or is the individual buying a used car required to

12.

have a second independent safety inspection performed before he/she buys said,
even though there are laws in place to protect the consumer? This Court too
has determined that the Fourteenth Amendment protects defendants from such
fraud and Mr. Aragon submits that when said occurs, there should be a process
for review, i.e., equitable tolling should be available to the pro-se prisoner
litigant.)

These two things being understood, it is clear that 28 U.S.C. § 2244(d)(1)(A)
limits a state prisoner's ability to seek federal review of his state conviction
to one-year from the date that conviction becomes final. See e.g., Jimenez
v. Quarterman, 555 U.S. 113 (2009). Specifically and as relevant to Mr. Aragon's
case, the one-year statutory limitation set by subsection (A), runs from:

"the date on which the impediment to filing an application created
by State action in violation of the Constitution or laws of the
United States is removed, of the applicant was prevented from
filing by such State action • • •
or
"the date upon which the factual predicate or the claim of claims
presented could have been discovered through the exercise of due
diligence."
28 U.S.C. § 2244(d)(1)(B)/(D).

An initial question before this Court is whether the due process protections
afforded in Santobello supra, require that when a state, such as Colorado in

13.

Mr. Aragon's case, contract with a defendant that in return for the waiver of
his constitutional rights to a jury trial he'll receive a stipulated sentence
require that the defendant receive said? This Court has not addressed such a
question since Santobello and perhaps it is time.

Another question is whether a state can misrepresent or deceive a defendant as
a means to an end, in order that they obtain a conviction? Moreover, if this
occurs, (as it did here), is the defendant required to ferret out these mis­
representations or falsehoods within the time limitations set by § 2244(d)(1)(A)
or be forever time barred? In other words, if a state can effectively misrepresent
or deceive a defendant for sufficient time to allow procedural bar to occur
(especially when a state refuses to follow, as it did here, controlling federal
law, thereby protecting the defendant's due process rights), should they be
allowed to get away with it?

If there ever was a claim that effectively would allow for equitable tolling,
this is the one, as Mr. Aragon not only was unable to discover the factual
predicate of the claim until 2017 (remembering that, contrary to Judge Gallagher's
determinations, a federal detainer was lodged against Mr. Aragon since his federal
sentence was imposed in 1997, hence the filing to get it removed in 2011, in
an attempt to be able to advance through the Colorado Dept, of Corrections for
programming purposes should not be counted against him). Moreover, Mr. Aragon's
federal attorney knew about his Colorado detainer and should have advised Mr.

14.

Aragon that any future sentence he received in Colorado would automatically run
consecutively to his federal sentence under the statutory provisions of 18 U.S.C.
§ 3584. When counsel didn't, once again Mr. Aragon was denied his Sixth Amendment
right to effective assistance of counsel at a time when he had a constitutional
right to said.

Accordingly, Mr. Aragon respectfully submits that given the particulars of his
case, he satisfies the requisites for equitable tolling of the statutory
limitations set by § 2244(d)(1)(A), under subsection (B) or (D) of § 2244 and
thus the lower court's determinations that he was not are in error. Moreover,
Colorado's failure to follow federal law and correct the breach of the terms
of Mr. Aragon's plea agreement are an assault upon this Court's jurisdiction
as well as Mr. Aragon's due process protections. As such, He respectfully moves
this Court to grant certiorari on this issue and appoint counsel to represent
him. This, as well as all available relief is respectfully requested.
CONCLUSION
The petition for writ of certiorari should be granted.
Respectfully submitted,

/

Arkansas Valley Correctional Facility
12750 Highway 96, Lane 13
Ordway, 00. 81034
Pro-Se

15.

/

